UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2487
United States of America
Appellee
v.
Cleophus Reed, Jr.
Appellant

Appeal from U.S. District Court for the District of Minnesota
(0:17-cr-00253-MJD-2)
ORDER
The petition for rehearing by the panel is denied.
September 30, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 19-2487

Page: 1

Date Filed: 09/30/2020 Entry ID: 4960957

CASE 0:17-cr-00253-MJD-BRT Doc.346 Filed 08/25/20 Page lot 14

®mteb States Court of appeals!
jFor tfje Cigfjtl) Circuit

No. 19-2487

United States of America
Plaintiff - Appellee
v.

Cleophus Reed, Jr.
Defendant - Appellant

Appeal from United States District Court
for the District of Minnesota

Submitted: June 19, 2020
Filed: August 25, 2020

Before KELLY, ERICKSON, and STRAS, Circuit Judges.

KELLY, Circuit Judge.
Cleophus Reed, Jr., appeals after a jury convicted him on three counts of drug
and gun charges. He challenges the sufficiency of the evidence on all counts, the

Annellata Caspr 10-2487

Paofi-1

Date Filar! 06/25/2020 Fntrv ID- 4048818

CASE 0:17-cr-00253-MJD-BRT Doc.346 Filed 08/25/20 Page 2 of 14

racial composition of the jury venire, and the length of his sentence. Finding no basis
for reversal, we affirm the district court’s1 judgment.
I.
Sergeant Adam Lepinski of the Minneapolis Police Department began
investigating a suspected drug-trafficking organization in the spring of 2017. During
this investigation, law enforcement executed a search warrant at a house on Colfax
Avenue in Minneapolis. No one appeared to reside at the house, but officers found
evidence of drug trafficking: respirator masks, latex gloves, scales, packing material,
a blender used to grind and cut heroin with other substances, two hydraulic presses
for making bricks of heroin, and 300 grams of heroin inside a large travel mug.
Officers also found 839 grams of heroin, 751 grams of crack cocaine, and a 9 mm
semi-automatic handgun in the trunk of a car parked in the driveway.
Law enforcement later obtained a warrant to search an apartment on Emerson
Avenue in Minneapolis, where they believed Reed lived. No one was home when
officers executed the search warrant, but they found evidence that Reed lived there,
including photographs of his wife, Vivian; men’s clothing; and mail, tax documents,
and casino rewards cards bearing his name. Officers also found a handwritten note
claiming responsibility for everything in the apartment:
I Cleophus Reed Jr.
[date of birth] am responsible for
all activities in [street number] emerson Ave N 19
To whomever it may
concern with all knowledge
Vivian M. Reed, has know [sic]
knowledge of anything.
The Honorable Nancy E. Brasel, United States District Judge for the District
of Minnesota.
-2-

AnnftllatP! r.aspr 1Q-P4R7

Panfv 9

Datfi FilfiH- na/?5/?n?n Fntrv ID- 4948818

CASE 0:17-cr-00253-MJD-BRT Doc.346 Filed 08/25/20 Page 3 of 14

Officers discovered evidence of drug trafficking at the Emerson apartment: the
same brand ofrespirator masks, hydraulic press, latex gloves, and travel mug as found
at the Colfax house. They also found two guns in an unlocked box on the bedroom
floor: a Ruger .40 caliber semi-automatic pistol with a scratched-off serial number
and a Taurus .22 caliber semi-automatic pistol with a distinctive tip-up barrel.
After searching the Emerson apartment, law enforcement obtained a warrant
to collect Reed’s DNA. Lepinski went to the apartment to execute this warrant on
July 25, 2017. He could hear someone inside, but no one answered the door.
Lepinski testified that he believed Reed was inside the apartment based on text
messages later recovered from Reed’s phone. One message sent from Reed’s phone
on that date read: “Police just came by. Stay away from here.” Another message
sent to Reed’s wife read: “Police just left saying call him. Lepenski [sic].”
The next day, Lepinski stopped Reed while he was driving his van. Lepinski’s
microphone recorded the traffic stop, and the government played the recording at
trial. During the stop, Reed told Lepinski, “Let uh, the bird know . . . he’ll be
decapitated before the Super Bowl.” A subsequent search of Reed’s van uncovered
the same brand of latex gloves found at both the Colfax house and the Emerson
apartment. Additionally, text messages on Reed’s phone indicated he was involved
in drug trafficking. One sender wrote, “I need an oz of fast.” Reed replied, “On
Rez.”

In September 2017, the grand jury returned a six-count indictment charging
Reed, David Kline, Timothy Dulaney, and Manley Humphries with drug and firearms
offenses. Reed was charged in Count One with conspiracy to distribute heroin,
powder cocaine, and crack cocaine, in violation of 21 U.S.C. §§ 841(a)(1) and 846.
He was charged in Count Two with possession with intent to distribute heroin and
crack cocaine, in violation of 21 U.S.C. §§ 841(a)(1) and 841(b)(1)(A), and 18 U.S.C.
§ 2. And he was charged in Count Five with possessing firearms as a convicted felon,
-3-

Annallata P.asfi- 19-94R7

Pane- 3

Datfi FilfiH- nR/?5/?n?n Fntrv ID- 4Q4RR1R

CASE 0:17-cr-00253-MJD-BRT Doc.346 Filed 08/25/20 Page 4 of 14

in violation of 18 U.S.C. §§ 922(g)(1) and 924(a)(2). Special Agent Bryan Lervoog
transported Reed to court to make an initial appearance. Lervoog testified that during
the trip, Reed volunteered, without prompting, “The CRI is going to have a bad
time.”2
Reed was the only co-defendant to proceed to trial. During jury selection, he
objected to the racial composition of the jury venire as overwhelmingly white. Reed
argued the venire did not represent a fair cross-section of the community. The district
court provisionally overruled the objection after finding no evidence to establish that
the venire was unrepresentative of the community, or that any under-representation
was due to a systematic exclusion of any group from the jury pool.
At trial, the government alleged Reed conspired with his co-defendants and
others to distribute heroin and cocaine from the Colfax house. The government
contended that Dulaney rented the Colfax house and allowed Kline to use it as a stash
house. Reed’s alleged role in the conspiracy was to prepare heroin for distribution
by cutting it with other substances and pressing it into blocks. He also cooked
powder cocaine into crack cocaine and would occasionally sell the drugs. The
government alleged that while Reed prepared the drugs, he wore a respirator mask
and latex gloves to protect himself. A forensic analyst from the Minnesota Bureau
of Criminal Apprehension testified that one of the respirator masks from the Colfax
house tested positive for Reed’s DNA.
Several of Reed’s alleged co-conspirators testified for the government at trial.
Jevone Gentle acknowledged that he sought “a break on his sentence” by testifying.
He implicated Reed in the conspiracy, explaining that Reed would bring heroin and
cocaine to the Colfax house and would “cook” the drugs while using the hydraulic

2The government alleged that “CRI” is a common abbreviation for
“confidential reliable informant.”
-4-

Annsllatfi Case- 19-9487

PariR- 4

Date Filfid- 08/95/2090 Fntrv ID- 4948818

CASE 0:17-cr-00253-MJD-BRT Doc.346 Filed 08/25/20 Page 5 of 14

presses and respirator masks. Gentle saw Reed put drugs in the trunk of the car
parked in the driveway. He also saw Reed with guns on numerous occasions but was
unable to provide specific dates.
Dulaney also testified. He had pleaded guilty to the drug-trafficking
conspiracy and acknowledged that he also was testifying in hopes of receiving a
reduced sentence. He explained that Reed’s role was to prepare the drugs and to
sometimes sell them. Dulaney said Reed had access to the drugs stored in the car
parked at the Colfax house. He also testified that Reed possessed firearms. Kenneth
Mack, a cooperating witness, told the jury that he too agreed to testify “[w]ith the
hope that [he] will get reduction in his sentence.” According to Mack, Reed worked
with Kline to produce and sell drugs.
Vivian Reed testified for the defense. She explained that Reed did not have
access to the Emerson apartment when the police searched it. She believed law
enforcement planted the guns in the apartment. On cross-examination, the
government elicited testimony from Vivian about a previous search warrant executed
at a home she shared with Reed in 2012, where the police recovered crack cocaine.
The government argued this provided context for the handwritten note found at the
Emerson apartment: she had been drawn into Reed’s illegal activities before, so he
wrote the note to prevent the same from happening again.
Reed also testified. He denied being involved in the charged conspiracy and
challenged the government’s evidence against him. Reed explained that he worked
with Kline’s mother and, as part of his work, used a respirator mask while cleaning.
He suggested this was how a respirator mask with his DNA turned up at the Colfax
house. He denied any knowledge of the guns found at the Emerson apartment.
After a three-day trial, the jury convicted Reed on all three counts. Reed then
moved for a new trial under Federal Rule of Criminal Procedure 33, based on the
-5-

Annallatp P.asfv 1Q-9487

Pane?- 5

Date FilarF 08/25/2090 Fntrv ID- 4948818

CASE 0:17-cr-00253-MJD-BRT Doc.346 Filed 08/25/20 Page 6 of 14

racial composition of the jury venire. The district court denied the motion. At
sentencing, the court calculated an offense level of 34 and a criminal history
category V, resulting in a Guidelines range of 235 to 293 months in prison. Reed
objected to how the Guidelines’ drug conversion tables treat crack cocaine
significantly more harshly than powder cocaine, and urged the district court to
disregard the Guidelines for this reason. The court acknowledged its authority to
disagree with the Guidelines for policy reasons but declined to do so. The court
imposed a 240-month sentence on Counts One and Two and a concurrent 120-month
sentence on Count Five. Reed timely appealed.
II.
Reed first challenges the sufficiency of the evidence against him on all three
counts. He argues the three cooperating witnesses only testified against him to
receive reduced sentences in their own criminal cases. He notes that Gentle was
unable to provide much detail about when Reed participated in the drug conspiracy
or possessed firearms. He also points out that Lepinski testified that he never saw
Reed with his co-defendants or at any of the properties Lepinski surveilled.
We review the sufficiency of the evidence de novo, evaluating the evidence in
the light most favorable to the verdict and drawing all reasonable inferences in its
favor. United States v. Parker, 871 F.3d 590, 600 (8th Cir. 2017). We will reverse
only if no reasonable jury could have found the defendant guilty beyond a reasonable
doubt. United States v. Wavs, 832 F.3d 887, 894 (8th Cir. 2016).
A.
To prove Reed guilty of Count One, the government had to establish that:
(1) two or more people reached an agreement to distribute heroin, powder cocaine,
or crack cocaine; (2) Reed voluntarily and intentionally joined that agreement; and
-6-

Annallata Hasp- 1 P-2487

Panfv R

Data Filar)- 08/25/2020 Fntrv ID- 4Q4881S

CASE 0:17-cr-00253-MJD-BRT Doc.346 Filed 08/25/20 Page 7 of 14

(3) at the time Reed joined the agreement, he knew its essential purpose. See 21
U.S.C. §§ 841(a)(1), 846; United States v. Meeks, 639 F.3d 522,527 (8th Cir. 2011).
Proof of an express agreement is not necessary, and the government may rely on
circumstantial evidence to establish an agreement. Meeks, 639 F.3d at 527. To prove
Reed guilty of Count Two, the government had to establish that Reed knowingly
possessed a controlled substance and that he intended to distribute the drugs to
another person. See 21 U.S.C. § 841(a)(1); United States v. Morales, 813 F.3d 1058,
1065 (8th Cir. 2016).
The government presented sufficient evidence to support Reed’s convictions
on Counts One and Two. Multiple witnesses consistently identified Reed as a
member of the drug conspiracy operating out of the Colfax house. These witnesses
testified that Reed was a “cook” who would turn powder cocaine into crack cocaine
and mix, cut, and press heroin with hydraulic presses while wearing latex gloves and
respirator masks. Reed’s DNA was found on a respirator mask in the Colfax house.
While Reed explained that his DNA was on the mask because he worked as a cleaner
for Kline’s mother, the jury was not obligated to credit this testimony over the
testimony of the other witnesses. See, e.g.. United States v. King, 898 F.3d 797, 808
(8th Cir. 2018) (explaining that a jury may base its verdict on the testimony of
cooperating witnesses). In the kitchen of the Colfax house, a large travel mug held
300 grams of heroin. Law enforcement also found large quantities of heroin and
crack cocaine and a handgun in a car parked in the driveway. One of the
government’s witnesses testified that he saw Reed place drugs in the car’s trunk.
Evidence showed that Reed also occasionally sold the drugs he prepared. Witnesses
attested to this fact, and text messages from Reed’s phone corroborated their
testimony.
Moreover, evidence at the Emerson apartment connected Reed to the drug­
trafficking operation at the Colfax house. At the apartment, police found the same
type of hydraulic press, respirator mask, latex gloves, and travel mug found at the
-7-

Annallatp Hasp" 10-9487

Panp- 7

Datp Filar!" 08/95/2090 Fntrv ID" 4048818

CASE 0:17-cr-00253-MJD-BRT Doc.346 Filed 08/25/20 Page 8 of 14

Colfax house. Police also discovered tax documents, casino cards, and mail bearing
Reed’s name, as well as men’s clothing and photographs of Reed’s wife. A
handwritten note, apparently from Reed, claimed responsibility for everything in the
apartment. Lepinski’s testimony supported the conclusion that Reed was at the
apartment when Lepinski tried to execute the DNA warrant. And a subsequent search
of Reed’s van uncovered the same brand of latex gloves found in both the Colfax
house and the Emerson apartment.
The government also introduced evidence that Reed had threatened cooperating
witnesses in the presence of law enforcement on two occasions. We have said that
a threat against a potential informant is evidence that may show knowledge of and
participation in a conspiracy. United States v. Nunn, 940 F.2d 1128, 1131 (8th Cir.
1991). And while Reed strongly denied his guilt at trial, the jury was not obligated
to believe him. See United States v. Never Misses A Shot, 781 F.3d 1017,1026 (8th
Cir. 2015).
Finally, Reed argues that the cooperating witnesses were simply not credible
because they testified to reduce their own prison sentences. But the jury heard this
argument from Reed’s attorney during his closing remarks, and the district court
instructed the jury to consider the witnesses’ motivations when assessing their
testimony. The jury is “capable of evaluating the credibility of testimony given in
light of the agreements each witness received from the government.” United States
v. Tillman, 765 F.3d 831, 834 (8th Cir. 2014) (quoting United States v. Conway, 754
F.3d 580, 587 (8th Cir. 2014)). “The jury is the final arbiter of the witnesses’
credibility, and we will not disturb that assessment” on appeal. United States v.
Listman, 636 F.3d 425,430 (8th Cir. 2011) (quoting United States v. Hayes, 391 F.3d
958,961 (8th Cir. 2004)). The evidence was sufficient to support the jury’s verdicts
on Counts One and Two.

-8-

Annallata OaRa- 19-94R7

Pana- 8

Data Filar)-

Fntrv ID- 4Q4RR1R

CASE 0:17-cr-00253-MJD-BRT Doc.346 Filed 08/25/20 Page 9 of 14

B.
Reed also challenges his conviction for possessing firearms as a felon. See 18
U.S.C. § 922(g)(1). This conviction was based on the Ruger .40 caliber semi­
automatic pistol and Taurus .22 caliber semi-automatic pistol found inside the
Emerson apartment. Reed stipulated at trial that he was a convicted felon during the
relevant time; on appeal, he argues only that the government failed to show that he
possessed these firearms.
We conclude the evidence was sufficient to support the jury’s verdict. As
discussed above, numerous pieces of evidence connected Reed to the Emerson
apartment where the guns were found. Gentle and Dulaney testified that they saw
Reed with the two guns in question. They identified the guns by their distinctive
features: the Ruger had a scratched-off serial number and the Taurus had a tip-up
barrel, which a firearms technician explained was made by only a couple of gun
manufacturers. Based on this evidence, a jury reasonably could find Reed possessed
the guns as the government alleged.
III.
Reed next argues that the district court erred by denying his motion for a new
trial. In his motion, Reed reasserted that the jury venire did not represent a fair racial
cross-section of the community. In response, the district court found that the District
of Minnesota “primarily relies on voter registration lists to selectjurors randomly, and
supplements the list with driver’s license lists; state identification card holder lists;
and other similar lists to be used by order of the court, including, but not limited to,
tribal member lists.” The court also found that jurors called for trial in the District’s
Third Division (St. Paul courthouse) and those called for trial in the Fourth Division
(Minneapolis courthouse) “are drawn from the same pool.” The court ultimately
-9-

Annfillatfi Hasp- 19-94R7

Panp1 9

Datp Filort- D8/96/9090 Fntrv ID- 494RR1R

CASE 0:17-cr-00253-MJD-BRT Doc.346 Filed 08/25/20 Page 10 of 14

decided that Reed failed to show that the representation of Black people on the venire
was unfair or unreasonable in relation to the number of Black people in the
community or that any under-representation was due to systematic exclusion.
Generally, we will reverse the district court’s ruling on a Rule 33 motion “only
if we find that ruling to be a clear and manifest abuse of discretion.” United States
v. Amaya, 731 F.3d 761, 764 (8th Cir. 2013) (quoting United States v. Malloy, 614
F.3d 852, 862 (8th Cir. 2010)). But where, as here, a defendant claims that jury
selection violated his Sixth Amendment right to a fair cross-section of the
community, we review the district court’s decision de novo. United States v.
Sanchez, 156F.3d875, 879 (8th Cir. 1998); see also United States v. Rodriguez, 581
F.3d 775, 789 (8th Cir. 2009) (“Allegations of racial discrimination in jury pools
involve mixed questions of law and fact, and receive de novo review.”).
The Sixth Amendment entitles a defendant to an “impartial jury drawn from a
fair cross-section of the community.” Taylor v. Louisiana, 419 U.S. 522,536(1975).
To establish a prima facie Sixth Amendment violation based on the composition of
the jury venire, a defendant must show;
(1) that the group alleged to be excluded is a “distinctive” group in the
community; (2) that the representation of this group in venires from
which juries are selected is not fair and reasonable in relation to the
number of such persons in the community; and (3) that this
under-representation is due to systematic exclusion of the group in the
jury-selection process.
Duren v, Missouri, 439 U.S. 357, 364 (1979).
There is no dispute that Black people are a “distinctive” group for purposes of
the Duren test. United States v. Womack, 985 F.2d 395, 397 (8th Cir. 1993). To
satisfy the second part of the Duren test, Reed must first “demonstrate the percentage
-10-

Annallata Case*- 19-9487

Paria- 10

Data Filari- 08/95/9090 Fntrv ID- 4948818

CASE 0:17-cr-00253-MJD-BRT Doc.346 Filed 08/25/20 Page 11 of 14

of the community made up of the group alleged to be underrepresented.” Duren, 439
U.S. at 364. This number is “the conceptual benchmark for the Sixth Amendment
fair-cross-section requirement.” Id Then, Reed must show that the representation
of this group in the pool of potential jurors is not fair or reasonable in relation to the
percentage of this group in the community. Id A “gross discrepancy” between the
percentage of members from the distinctive group injury venires and the percentage
of the distinctive group in the community will satisfy the second part of the Duren
test. Id. at 366.
Reed’s claim fails to establish the second part of the Duren test. He did not
provide evidence of the racial composition of the jury pool used by the District of
Minnesota, or even the composition of the potential jurors called for his trial. Instead,
he simply provided the percentage of Minnesota residents as a whole who are Black
(6.5%) and argued “there is a perception of racial disparity in voting in Minnesota.”
At oral argument, the government suggested that Reed could have obtained
information about the racial composition of the District’s jury pool through a Rule 17
subpoena, see Fed. R. Crim. P. 17, but he did not do so. In short, Reed did not
present the district court with the relevant statistics to support his motion, and thus
failed to show that Black people are under-represented in the District’s pool of
potential jurors.3

3Reed’s argument also overlooks the fact that the District does not draw its list
of potential jurors solely from the state’s voter rolls. Rather, the District supplements
its list with “driver’s license lists; state identification card holder lists; and other
similar lists to be used by order of the court, including, but not limited to, tribal
member lists.” Therefore, even accepting Reed’s claim that there is a racial disparity
in the state’s list of voters, he has not demonstrated any racial disparity in the
District’s list of potential jurors. See Duren, 439 U.S. at 364; Sanchez, 156 F.3d at
879.
-11-

Annallatp Hasp' 10-9487

Pana- 11

Data FilpH- 08/25/9020 Fntrv ID- 4048818

CASE 0:17-cr-00253-MJD-BRT Doc.346 Filed 08/25/20 Page 12 of 14

IV.
Reed also challenges the length of his sentence. We review Reed’s challenge
by first ensuring “that the district court committed no significant procedural error.”
See United States v. Clayton, 828 F.3d 654, 657 (8th Cir. 2016) (quoting Gall v.
United States, 552 U.S. 38, 51 (2007)). We then “consider the substantive
reasonableness of the sentence imposed under an abuse-of-discretion standard.” Id
(quoting Gall, 522 U.S. at 51). “A district court abuses its discretion when it fails to
consider a relevant factor, gives significant weight to an irrelevant or improper factor,
or considers only appropriate factors but nevertheless commits a clear error of
judgment by arriving at a sentence that lies outside the limited range of choice
dictated by the facts of the case.” Id (quoting United States v. San-Miguel, 634 F.3d
471,475 (8th Cir. 2011)).
Reed argues the district court improperly relied on the Guidelines’ drug
conversion tables to calculate his offense level. See U.S. Sent’g Guidelines Manual
§ 2D1.1, cmt. n.8 (U.S. Sent’g Comm’n 2018). Reed asserts that the tables establish
an unreasonably high conversion rate for crack cocaine. They equate one gram of
crack cocaine to 3,571 grams of converted drug weight. Id By contrast, the tables
equate one gram of powder cocaine to just 200 grams of converted drug weight. Id
Reed suggests this discrepancy affects Black defendants “at a higher rate.”4
Sentencing courts are “entitled to reject and vary categorically from the crack
cocaine Guidelines based on a policy disagreement with those Guidelines.” Spears
v. United States. 555 U.S. 261, 265-66 (2009). But “while a district court may
choose to deviate from the guidelines because of a policy disagreement, it is not

4Reed did not offer evidence to the district court to support this claim, and he
does not challenge the Guidelines’ drug conversion tables under the Equal Protection
Clause of the Fourteenth Amendment.
-12-

Annsllats Hasp- 19-24R7

Pans- 12

Data Filar)' 08/26/2020 Fntrv ID- 4948818

CASE 0:17-cr-00253-MJD-BRT Doc.346 Filed 08/25/20 Page 13 of 14

required to do so.” United States v. Heim, 941 F.3d 338,340 (8th Cir. 2019) (cleaned
up). “In recent years, numerous defendants have argued on appeal that a district court
erred when it refused to vary from a guidelines provision for policy reasons,” and we
have rejected those challenges. Id
Reed argued at sentencing that the district court should disregard the
Guidelines’ drug conversion tables because of their unreasonably harsh treatment of
crack cocaine. The court expressly recognized its authority to vary based on a
disagreement with the crack cocaine conversion rate but declined to do so. The
district court did not err. See United States v. Anderson, 618 F.3d 873, 884 (8th Cir.
2010) (“The district court... was aware of its discretion to consider a variance based
on the crack/powder disparity and did not abuse its discretion in deciding not to
exercise such discretion to grant Anderson’s requested variance.”).
To the extent Reed argues his sentence is otherwise substantively unreasonable,
we disagree. His 240-month sentence is within the Guidelines range of 235 to 293
months, and he has not shown that the district court improperly weighed the
sentencing factors. See Clayton, 828 F.3d at 657-58. The court considered Reed’s
criminal history and the “very significant” offenses for which he was found guilty at
trial. It also considered the disparity between his sentence and those of his
co-defendants. These are appropriate factors to consider when making a sentencing
decision, and the record does not show that the court overlooked any relevant factor.
See United States v. Hall 825 F.3d 373, 375 (8th Cir. 2016).5

5Reed mentions a few additional concerns in his opening brief, but he does not
meaningfully develop or argue them. Because he provides no basis in law or fact for
his cursory assertions of error, we cannot consider the merits of these claims. See
United States v. Mshihiri, 816 F.3d 997, 1009 n.5 (8th Cir. 2016); see also United
States v. Welch. 811 F.3d 275, 278 n.2 (8th Cir. 2016) (“At no point does [Welch]
cite authority, cite to the record, or provide reasoning in support of this argument.”);
United States v. Warren, 788 F.3d 805, 814-15 (8th Cir. 2015) (“Since Warren has
-13-

Annallata C.asa- 19-2487

Pana- 13

Data Filarl- 08/25/2020 Fntrv ID- 4948818

CASE 0:17-cr-00253-MJD-BRT Doc.346 Filed 08/25/20 Page 14 of 14

We affirm the district court’s judgment.

failed to go beyond a cursory assertion of this argument in his opening brief and made
no mention of it in his reply brief or at oral argument, we refuse to consider the merits
of the issue.”).
-14-

Annellate Case- 10-24R7

Pane- 14

Data Filed- 08/25/2020 Fntrv in- 4048818

No. 19-2487

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

UNITED STATES OF AMERICA,
Respondent,
v.
CLEOPHUS REEDJR.,
Petitioner.

PETITIONER CLEOPHUS REED, JR.’S PETITION FOR REHEARING

Robert A. Lengeling
MN Attorney ID# 304165
Beito & Lengeling, P.A.
Flour Exchange Building
310 Fourth Avenue South, Suite 1050
Minneapolis, Minnesota 55415
(612) 767-1618
rob@beitolengelinglaw.com
ATTORNEY FOR PETITIONER

Katharine T. Buzicky
David P. Steinkamp
Assistant United States Attorneys
600 U.S. Courthouse
300 Fourth Street South
Minneapolis, Minnesota 55415
(612)664-5600
ATTORNEYS FOR RESPONDENT

PETITION
Petitioner Cleophus Reed, Jr. respectfully petitions the Court for rehearing of his
appeal pursuant to Rule 40 of the Federal Rules of Appellate Procedure. Reed instructed
Counsel to petition the Court for rehearing in all respects and he now requests a panel
rehearing of the decision filed by this Court on August 25, 2020.
ISSUE I
The Court of Appeals reviewed Mr. Reed’s claim of insufficiency of the evidence
de novo, evaluating the evidence in the light most favorable to the verdict and drawing all
reasonable inferences in its favor. United States v. Parker, 871 F.3d 590, 600 (8th Cir. 2017).
However, Reed claims he raised several issues within this challenge that the Court did not
evaluate properly or should have evaluated in his favor.
ISSUE II
Reed challenged his conviction for possession of a firearm as a felon by arguing the
Government failed to connect him to the firearms found in his wife’s apartment. Reed
disagrees that the trial testimony established he possessed the firearms.
ISSUE III
Reed challenged the jury pool on grounds it was not a fair cross-section of the
community because Black were underrepresented. The Court of Appeals rejected the
argument, but also determined there was not enough information provided to the Court
to make a better evaluation. Reed disagrees and requests another opportunity to explain
his position.

ISSUE IV
The Court of Appeals found Reed’s sentence was procedurally correct and
reasonable under the abuse of discretion standard. Reed disagrees and seeks a renewed
opportunity to argue why the drug con version table is improper in his case.
CASE BACKGROUND AND DISPOSITION
Cleophus Reed, Jr. has steadfastly maintained his innocence in the instant case
from the very beginning. He was charged with conspiracy to distribute heroin, cocaine
and crack', possession with intent to distribute, and possession of a firearm as a felon. A
jury trial was held and the jury convicted Reed on all three counts. Reed moved for
evidentiary rulings before trial, made objections at trial, and moved for a new trial
following the guilty verdicts. He was unsuccessful. Reed then initiated the instant appeal.
Reed’s appeal broadly challenged the sufficiency of the evidence for the verdicts,
the more specific denial of his motion for new trial, and he complained about the

■

reasonableness of the sentence.
The Court of Appeals conducted a full review of his case and ultimately denied
affirmed his convictions and sentence.
ARGUMENT
Reed seeks another chance to argue his case because he continues to maintain his
innocence. He instructed Counsel to file this petition and “appeal everything.” Reed
claims specific objections to evidence from the trial should have been reviewed for plain
error even if he argued insufficiency of the evidence on appeal. A defendant’s conviction
may be reversed, and a new trial granted, only”if the District Court made an error that

(1) is plain; (2) ‘affects substantial rights’; and (3) ‘seriously affects the fairness, integrity, or
public reputation of judicial proceedings.’” U.S. v. Chappell, 665 F.3d 1012, 1014 (8th
Cir. 2012). Counsel is aware of the standard of review cited by the Court of Appeals.
Reed believes the trial was full of error by the Court.
Reed cannot believe the jury could find him guilty of conspiracy or the firearm
charge in light of the testimony. He argues all a cooperating witness has to say at trial is
something to the effect of “yeah, that’s the gun” to put it on him. The fact the
cooperating witnesses were all housed in the same jail, and had contact with each another,
forces Reed to feel they corroborated their testimony.
In regards to his sentence, he disagrees with the Court’s characterization that 240
months is reasonable. Reed argues the drug conversion tables, as applied in his case, are
unfair. Whether the District Court has the authority to grant a variance from the
guidelines or not doesn’t change Reed’s belief his sentence is not fair. He respectfully
requests the Court to re-examine the application of the drug conversion tables in his case.

BEITO & LENGELING, EA.
Date:

September 5. 2020

By

s/ Robert A. Lengeling_________
Robert A. Lengeling, #304165
Flour Exchange Building
310 Fourth Avenue S, Suite 1050
Minneapolis, Minnesota 55415
(612) 767-1618 / (612) 333-8003 fax
rob@beitolengelinglaw. com
ATTORNEY FOR PETITIONER

CERTIFICATE OF SERVICE
I hereby certify that on September 5, 2020 I electronically filed the foregoing Petition for
Rehearing with the Clerk of Court for the Eighth Circuit Court of Appeals by utilizing
the CM/ECF system. I certify that all participants in the case are registered CM/ECF
users and service will be accomplished through the CM/ECF system.

5/ Robert A. Lengeling______
Robert A. Lengeling, #304165

IN THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 19-2487

UNITED STATES OF AMERICA,
Appellee,
v.

CLEOPHUS REED, JR.,
Appellant.

APPEAL FROM THE UNITED STATES DISTRICT COURT FOR THE DISTRICT
OF MINNESOTA
HON NANCY E. BRASEL, U.S. DISTRICT COURT JUDGE

APPELLANT’S BRIEF

Robert A. Lengeling
Beito & Lengeling, P.A.
Attorney ID #304165
Flour Exchange Building
310 Fourth Avenue South, Suite 1050
Minneapolis, Minnesota 55415
(612) 767-1618/ (612) 333-8003 fax
ATTORNEY FOR APPELLANT

Annallata Casa- 19-9487

Pana- 1

Date FilaH- 10/18/9019 Fntrv in- 4R4140R

SUMMARY OF THE CASE AND REQUEST FOR ORAL ARGUMENT
The Defendant, Cleophus Reed, Jr. (hereinafter referred to as “Reed”), was
convicted following a jury trial in the District of Minnesota of Counts I, II, and V
of a six count Indictment. Count I alleged Conspiracy to Distribute a Controlled
Substance pursuant to 21 U.S.C. §841 (a)(1), 21 U.S.C. §841 (b)(1)(A). Count II
alleged Possession with Intent to Distribute a Controlled Substance pursuant to 21
U.S.C. §841 (a)(1) and 21 U.S.C. §841 (b)(1)(A). Count V alleged Possession of a
Firearm by a Prohibited Person pursuant to 18 U.S.C. §922 (g)(1) and 18 U.S.C.
§924 (a)(2).
The advisory guideline sentencing range according to the (PSR) was 292365 months. The District Court found the offense level to be 34 with criminal
history category V. The Court found the range was 235-293 months. The Court
sentenced Reed to 240 months.
Reed moved for a new trial and objected to the entire PSR process because
he maintains his innocence. Reed did not cooperate with a PSR interview, and
objected to specific sentencing issues through counsel. Counsel reviewed the
record and conferred with Reed regarding viable appellate issues. Counsel
respectfully submits the instant brief at Reed’s instruction.
Reed requests the matter be scheduled for oral argument in order to aid the
Court in its decision on Reed’s issues. He requests 15 minutes per side.
i

Annulate Hasp- 19-9487

Pana- 9

Data Filar]- 19/18/9919 Fntrv ID- 48414RR

-%

TABLE OF CONTENTS
SUMMARY OF THE CASE AND REQUEST FOR ARGUMENT

1

TABLE OF AUTHORITIES

11

JURISDICTIONAL STATEMENT

in

STATEMENT OF ISSUES FOR REVIEW

1

STATEMENT OF THE CASE

2

SUMMARY OF THE ARGUMENT

3

ARGUMENT

14

I

II

III

WHETHER THE EVIDENCE WAS SUFFICIENT TO CONVICT
REED OF CONSPIRACY TO DISTRIBUTE CONTROLLED
SUBSTANCES, POSSESSING WITH INTENT TO DISTRIBUTE,
15
OR POSSESSING FIREARMS
WHETHER THE DISTRICT COURT ERRED IN DENYING
REED’S MOTION FOR NEW TRIAL...................................
WHETHER THE DISTRICT COURT’S SENTENCE
WAS SUBSTANTIVELY AND PROCEDURALLY
UNREASONABLE.....................................................

18

24

CONCLUSION

28

CERTIFICATE OF COMPLIANCE

28

CERTIFICATION

29

ii

Annpllatp Hasp- 19-94R7

Panp- 3

Data FilpH- 10/15/9019 Fntrv in- 4R414RR

TABLE OF AUTHORITIES
Federal Cases:

page

Duren v. Missouri, 439 U.S. 357 (1979)

21

Freeman v. U.S., 564 U.S. 522 (2011)

27

Gall v. U.S., 552 U.S. 38 (2007)

24, 27

Kimbrough v. U.S., 552 U.S. 85 (2007)

25

Spears v. U.S., 555 U.S. 261 (2009)

25

U.S. v. Bridges, 569 F.3d 374 (8th Cir. 2009)

27

U.S. v. Campos, 306 F.3d 577 (8th Cir. 2002)

18

U.S. v. Clayton, 828 F.3d 654 (8th Cir. 2016)

24,27

U.S. v. Hill, 552 F.3d 686 (8th Cir. 2009)

27

U.S. v. Johnson, 474 F.3d 1050 (8th Cir. 2007)

18

U.S. v. Johnson, 745 F.3d 866 (8th Cir. 2014)

15

U.S. v. Lacey, 219 F.3d 779 (8th Cir. 2000)

18

U.S. v. Ojeda-Estrada, 577 F.3d 871 (8th Cir. 2009)

15

U.S. v. Rodriguez, 581 F.3d 775 (8th Cir. 2009)

22

U.S. v. Washington, 515 F.3d 861 (8th Cir. 2008)

27

Statutes/Rules/Other:
18U.S.C. §3213

1

18U.S.C. §3553

1
in

Annallata Casa- 1Q-?4R7

Pana- 4

Data Filari- in/15/?D1Q Fntrv in- 4R414fifi

s

21 U.S.C. §841

1

21 U.S.C. §922

1

21 U.S.C. §924

1

28 U.S.C. §1291

1

IV
Annellate Hasps- 1 P-9487

Pane- 8

natps Filed- 10/18/9019 Fntrv in- 48414RR

JURISDICTIONAL STATEMENT
The Decision for Appeal: Reed appeals the Judgment following a jury
verdict convicting him of Conspiracy to Distribute a Controlled Substance,
Possession With Intent to Distribute a Controlled Substance, and Possession of a
Firearm by a Prohibited Person. Reed also specifically appeals his sentence.
Jurisdiction of the District Court: The United States District Court had
jurisdiction over Reed’s federal criminal prosecution pursuant to 18 U.S.C. §3231
(2018), which states: “The district courts of the United States shall have original
jurisdiction.. .of all offenses against the laws of the United States.” Reed was
indicted on September 27, 2017 alleging violations of 21 U.S.C. §841 and 21
U.S.C. §922, 924.
Jurisdiction of this court: The 8th Circuit Court of Appeals has jurisdiction
of the appeal pursuant to 28 U.S.C. §1291 (2018). This is an appeal from a final
decision of a district court of the United States.
The jury convicted Reed on February 22, 2019. Reed was sentenced on July
2, 2019, but the Judgment was filed on July 8, 2019. After sentencing, Reed
instructed Counsel to file a notice of appeal. Counsel filed the Notice of Appeal on
July 12, 2019.

l
Annpllate Casa- 19-9487

Pane*- fi

Data FilfiH- 10/18/9919 Fntrv in- 4841488

STATEMENT OF THE ISSUES FOR REVIEW
I.

WHETHER THE EVIDENCE WAS SUFFICIENT TO CONVICT
REED OF CONSPIRACY TO DISTRIBUTE CONTROLLED
SUBSTANCES, POSSESSING WITH INTENT TO DISTRIBUTE, OR
POSSESSING FIREARMS.
The Appellant was found guilty by a jury.
Apposite case:
United States v. Ojeda-Estrada, 577 F.3d 871 (8th Cir. 2009)

II.

WHETHER THE DISTRICT COURT ERRED IN DENYING REED’S
MOTION FOR NEW TRIAL.
The District Court denied Appellant’s motion for new trial and issued
a memorandum opinion.
Apposite case:
United States v. Johnson, 474 F.3d 1044 (8th Cir. 2007)

III.

WHETHER THE DISTRICT COURT’S SENTENCE WAS
SUBSTANTIVELY AND PROCEDURALLY UNREASONABLE.
The District Court determined the advisory guideline range and denied
Appellant’s request for variance, sentencing him to a middle of the range
sentence of 240 months.
Apposite case:
Freeman v. United States, 564 U.S. 522 (2011)

2

Annulate Hasa- 1 P-9487

Pana- 7

nata Filarl- 10/18/9019 Fntrv ID- 4R414RR

STATEMENT OF THE CASE
Nature of the Case: This is a direct appeal by Reed of the District Court’s
Judgment following a jury trial. Reed appeals the conviction and sentence.
Factual and Procedural Background: On September 27, 2017 an Indictment
was filed charging Reed , David Kline, Timothy Dulaney, and Manley Humphries
with six counts of drug and firearm crimes. Counts I and II charged Reed with
distributing 1 kilogram or more of a mixture or substance containing heroin and
280 grams or more of a mixture or substance containing cocaine base. Count V
charged possession of a firearm by a prohibited person. Reed entered a not guilty
plea and set about litigating several pre-trial issues.
Reed challenged three search warrants in his case: one for the apartment
where he allegedly lived, one for his DNA, and another for his vehicle. DOC
#104,1241. The Court denied his motion to suppress. DOC #136,159. Prior to
trial, Reed filed a motion in limine seeking to argue various evidentiary matters
and objected to the Government’s motion in limine. DOC #193, 216. The
Government intended to introduce a handwritten note found in the search of his
alleged apartment that was purportedly written by Reed. In the note, the author
claimed responsibility for everything in the apartment, but it was not signed. Reed
also sought to exclude evidence of a 2012 charge for drug possession that was

Reed will refer to the District Court docket as DOC and the transcript as TR.
3

Annallata Hasp- 1Q-9487

Pana- R

Data Filarl- 10/15/9013 Fntrv in- 4R414RR

dismissed and evidence of threatening statements Reed made in the presence of
law enforcement. The Court denied each of Reed’s requests. DOC #221.
The matter proceeded to trial on February 19,2019. DOC #223. The jury
convicted Reed on February 22,2019 after deliberating for several hours. DOC
#227. Reed objected during voir dire to the jury panel as not a representative
cross-section of the community because the racial makeup of the entire jury
appeared to be white. Reed filed a motion for new trial (DOC #237), which the
Court denied (DOC #266).
The Government alleges Reed was involved in a sophisticated conspiracy to
distribute heroin and cocaine base (“crack”) in the Minneapolis area. At trial, the
Government called ATF Task Force Officer Adam Lepinski as the first witness.
Sergeant Lepinski stated the investigation began with another individual, Jovan
Gentle. TR Vol I,p. 184. On May 1,2017 law enforcement conducted
surveillance on Gentle. TR Vol. I, p. 185. Gentle was arrested on May 1, 2017 in
Minneapolis after conducting a drug sale and he began cooperating immediately.
TR Vol. I, p. 185, 186. Officers previously obtained a search warrant for a house
located at 3614 Colfax Ave N in Minneapolis. TR Vol. I, p. 186. Leading up to
Gentle’s arrest, officers conducted surveillance at the Colfax house. TR Vol. I, p.
186. Officers saw Gentle and co-defendant Timothy Dulaney at the house. TR
Vol. I, p. 186-87.
4

Annallata Cas<=c 19-24R7

Pana- 9

Data Filarl- m/1R/?niq Fntrv in- 4R414RR

The search warrant was executed at the Colfax house on Mayl, 2017, which
was the same day Gentle was arrested. TR Vol. I, p. 194. The Colfax house
appeared to be a stash house. TR Vol. I, p. 194. The search turned up many items,
including the following: Item

TR Vol. I. page

grinder/blender
hydraulic jack
packaging materials for drug sales
respirators and scales
3/4 lb. heroin
handgun holster
cutting agents such as Superior
Manitol and Inositol powder

195
195
195
196
196, 198-99
212
213

In addition to what was located in the house, officers impounded a vehicle
parked in the back driveway. TR Vol. I, p. 216. The vehicle was later searched
pursuant to a search warrant. A tool bag was found in the trunk of the vehicle. TR
Vol. I, p. 217. Inside the tool bag was a handgun, approximately 893 g of heroin,
and approximately 750 g of crack cocaine. TR Vol. I, p. 217-220. According to
Sgt. Lepinski, officers also found a receipt from Total Wine in the vehicle. TR
Vol. I, p. 224. Sergeant Lepinski later obtained security camera footage from the
Total Wine store and observed co-defendant David Kline on the video. TR Vol.I,
p. 225-26. Following the search at the Colfax house, officers then searched
Gentle’s home in Savage, Minnesota. TR Vol. I, p. 232. A jacket in Gentle’s
closet yielded $23,000 in cash. TR Vol. I, P. 233.

5

Annulate Hasa- 1Q-94R7

Pana- 10

Data Filad- 10/15/9019 Fntrv in- 4R414RR

Sergeant Lepinski went on to testify that by June 6, 2017 his investigation
shifted to Dulaney. TR Vol. I, p. 237. He obtained a search warrant for Dulaney’s
home at 2114 Irving AveN in Minneapolis. TR Vol. I, p. 237. During execution
of the search warrant, officers focused on window wells on the exterior of the
home. TR Vol. I, p. 238-39. In the window wells, investigators found a bag of
crack cocaine and a bag of heroin. TR Vol.I, p. 239. They also confiscated two
handguns. TR Vol. I, p. 240. Inside the Irving house, officers discovered Inositol
powder and latex gloves like what was found at the Colfax house. TR Vol. I, p.
241.
Sergeant Lepinski then described the next phase of his investigation. Based
on information from Gentle and Dulaney, he obtained a search warrant for 705
Emerson Ave N, Apt. 101. Sergeant Lepinski believed this was Reed’s apartment.
TR Vol. I, p. 247. Officers executed the search warrant on July 13, 2017 and
found the following items:
Item

TR page

photos of Reed’s wife
documents and mail in Reed’s name
respirator mask
compressor
digital scale
magnetic storage box behind TV
latex gloves
folder with tax documents and note

248
249
252
254-55
256
258
260
282

6
Annpllafp Hasp- 1Q-94R7

Panp- 11

HatP FilftH- m/1R/?ni9 Fntrv in- 4R414RR

In addition to the items listed above, investigators found a mug labeled
Bubba, which was similar to a mug found at the Colfax house. TR Vol. I, p. 25051. Sergeant Lepinski testified that the respirator mask was similar to ones found
at Colfax. TR Vol. I, p. 253. The compressor was similar to the hydraulic jack
found at Colfax, TR Vol. I, p. 255, and Sgt. Lepinski claimed the magnetic box
found in the apartment matched a box found at Colfax. TR Vol. I, p. 258.
The folder found in the Emerson apartment contained a handwritten note.
TR Vol. II, p. 284. It was not signed, but indicated Reed was responsible for
everything in the apartment and Vivian Reed (his wife) had nothing to do it. TR
Vol. II, p. 284. Reed challenged whether this note should be offered at trial. DOC
#193. More importantly, officers found an unlocked lock-box in the bedroom of
the apartment. TR Vol. I, p. 264. The lock-box held two handguns. TR Vol. I, p.
265. Reed stipulated at trial he was prohibited from possessing firearms.
Sergeant Lepinski continued his testimony and explained his next steps in
the investigation. Following the search at the Emerson address, officers continued
surveillance at the location. TR Vol. II, p. 290. On July 26, 2017 Sgt. Lepinski
observed a minivan he attributed to Reed at the Emerson location. TR Vol. II, p.
290. Officers stopped the van with Reed driving so Sgt. Lepinski could execute a
search warrant for a DNA sample from Reed. TR Vol. II, p. 289-92. In the
process of taking the DNA sample, Sgt. Lepinski claims Reed struck up a
7
Annihilate Hasa- 19-9487

Pann- 19

Date Fiterl- 10/18/9019 Fntrv in- 4R4140R

conversation with him. TR Vol. II, p. 299. Reed said he does not cooperate with
police and he made what was perceived by Sgt. Lepinski as threatening statements
about informants. TR Vol. II, p. 299-300.
Meanwhile, as Reed was providing DNA, officers searched Reed’s minivan.
TR Vol. II, p. 301. Officers found a latex glove, TR Vol. II, p. 303, and a cell
phone that was subsequently searched. TR Vol. II, p. 308. Reed pointed to photos
of the van as it appeared during the search to show he lived out of the van at the
time. Text messages found on the phone were shown to the jury.
Sergeant Lepinski concluded his direct examination by testifying about how
the investigation then included co-defendant Manley Humphries, who is David
Kline’s father. TR Vol. II, p. 310, 311. Officers executed a search warrant at
Humphries house and found one pound of heroin in the garage. TR Vol. II, p. 312.
A van located at the Humphries residence was also searched. TR Vol. II, p. 313.
The title for the vehicle was inside the van and showed it was recently sold to
Humphries by Reed. TR Vol. II, p. 314.
On cross examination, Sgt. Lepinski agreed the Colfax house was rented by
co-defendant Dulaney. TR Vol. II, p. 331. He did not uncover any cellphone calls
or texts between Reed and Gentle. TR Vol. II, p. 333. And, law enforcement had
not conducted any controlled buys of drugs involving Reed. TR Vol. II, p. 334.
Sergeant Lepinski described conducting surveillance on the Colfax house at least
8

Annfillatft

19-3487

Panfi- 13

Date

10/15/3019 Fntrv in- 48414R8

“a couple times” per week prior to the search. TR Vol. II, p. 334. Officers never
saw Reed at the Colfax house or Gentle’s house. TR Vol. II, p. 334. Further, Sgt.
Lepinski admitted there was nothing in the Colfax house that belonged to Reed,
such as clothing or documents. TR Vol. II, p. 337.
Upon further cross examination, Sgt. Lepinski testified investigators were
unable to obtain any fingerprints from Reed on the presses or scales found at
Colfax. TR Vol. II, p. 338. The vehicle outside the Colfax house failed to yield
any fingerprints or DNA from Reed. TR Vol. II, p. 339-40. However, Sgt.
Lepinski did submit a DNA sample for testing taken from one of the respirators
found at Colfax. TR Vol. I, p. 243-45. With regard to Gentle, Sgt. Lepinski stated
that Gentle began cooperating immediately upon arrest and Gentle named David
Kline as his supplier. TR Vol. II, p. 340-41. In fact, Kline was the “leader of the
operation.” TR Vol. II, p. 342. According to Sgt. Lepinski, Gentle was trying to
bargain with officers right away. TR Vol. II, p. 341.
Sergeant Lepinski admitted he never saw Reed at either the Colfax house or
Dulaney’s house on Irving Avenue. TR Vol. II, p. 334, 341-42. Reed was
likewise never seen by police at the Emerson Avenue apartment building before
the search. TR Vol. II, p. 343. When Sgt. Lepinski stopped Reed for the DNA
sample and subsequently searched the van, he found no drugs or cash. TR Vol. II,
p. 351. No heroin or crack cocaine was found in the Emerson apartment. TR Vol.
9
Ann^llatP! P.asfv 1Q-94R7

Pantv 14

Ratp Filftri- m/1fi/?ni9 Fntrv in- 4R414RR

II, p. 345. Officers were unable to get any fingerprints attributed to Reed from the
lock box that contained the two firearms at the Emerson apartment. TR Vol. II, p.
345.
Sergeant Lepinski agreed on cross examination that when Gentle, Kline, and
Dulaney were arrested, they had either cash or drugs or both on their person, but
Reed did not when he was detained. TR Vol. II, p. 356. While the investigation
was ongoing, Gentle was allowed to remain on the streets because he was not
indicted with the others. TR Vol. II, p. 358,428. He stayed out and continued
cooperating until he was arrested in October, 2018. TR Vol. II, p. 358. In reality,
Gentle was continuing to sell drugs in 2017 through October 2018. TR Vol. II, p.
428-29.
After Sgt. Lepinski, the Government called several other witnesses. Some
of the foundational witnesses provided little by way of controversy. Jovan Gentle
testified on the second day of trial. Gentle started off by saying he was appearing
as a witness for the Government seeking a break in his sentence for substantial
assistance. TR Vol. II, p. 396. Gentle identified David Kline, Timothy Dulaney,
and Manley Humphries. TR Vol. II, p. 397-99. He then identified Reed in the
courtroom and referred to him as “Chi-town.” TR Vol. II, p. 403. Gentle testified
Kline and Reed would bring heroin and crack cocaine to the Colfax house. TR
Vol. II, p. 404. He claims he saw Reed mix drugs there, TR Vol. II, p. 406, use the
10

Annallata Hasfv 19-94R7

Pana- 15

Date Filar!' 10/15/9019 Fntrv in- 4R4145R

compressor to make bricks, TR Vol. II, p. 407, and wear a respirator mask. TR
Vol. II, p. 408. Gentle referred to Reed as their “cook.” TR Vol. II, p. 409. He
also stated he saw Reed with guns about ten times. TR Vol. II, p. 419-21.
Gentle was asked about the vehicle at the Colfax house, and he testified he
saw Reed and others put drugs in the vehicle. TR Vol. II, p. 423. Throughout his
testimony and cross examination, Gentle never gave any actual dates of when he
saw Reed at Colfax. Gentle didn’t say the specific drugs found in the vehicle at
Colfax were put there by Reed.
The Government also called Timothy Dulaney. On direct examination,
Dulaney admitted he plead guilty to conspiracy and possession with a plea
agreement that includes a reduction for substantial assistance. TR Vol. II, p. 45153. Dulaney identified Reed as Chi-town and said Reed’s role was to help prepare
drugs, mix, deliver, and sometimes sell, too. TR Vol. II, p. 455-56. Reed always
helped Kline in this regard. TR Vol. II, p. 456. At some point in December, 2016
Dulaney alleges he agreed to let Gentle use the Colfax house for drug prep and
storage. TR Vol. II, p. 459. He, his co-defendants and Gentle used Colfax for
about the next six months. TR Vol. II, p. 463.
Dulaney testified Kline and Reed mixed and compressed drugs at Colfax
while wearing gloves and respirators. TR Vol. II, p. 464. Dulaney claims he and
Gentle cooked cocaine at Colfax himself. TR Vol. II, p. 466, 483. In contrast to
n
Annallata Casa- 19-94R7

Pana- 1fi

Data Filar)- 10/15/9019 Fntrv in- 4R414fifi

Gentle’s testimony, Dulaney said Reed didn’t cook crack cocaine, but he sold it.
TR Vol. II, p. 466,483. Dulaney went on to say that everyone stored drugs in the
vehicle parked at Colfax at different times, including Reed. TR Vol. II, p. 470. He
also identified a firearm he claims Reed possessed. TR Vol. II, p. 474. However,
Dulaney provided no specific dates or when he allegedly observed things
happening at Colfax.
Following Dulaney, the Government called ATF Special Agent Bryan
Lervoog to describe how he transported Reed to custody. During the transport,
Lervoog claims Reed made another comment about informants. TR Vol. II, p.
491.
Next up was Minnesota BCA Forensic Scientist Andrea Feia who testified
about DNA testing. Feia told the jury that she tested the DNA sample taken from a
respirator mask at Colfax and matched it to the DNA sample taken from Reed by
Sgt. Lepinski. TR Vol. Ill, p. 510. There was no other forensic evidence of note.
Lastly, the Government called Kenneth Mack as a cooperating witness.
Mack testified he was appearing as part of a plea agreement and he was trying to
provide substantial assistance. TR Vol. Ill, p. 536. According to Mack, he was
dealing drugs in 2015 to 2016, which he got from David Kline. TR Vol. Ill, p.
539. According to Mack, Reed worked with Kline. TR Vol. Ill, p. 540.
Ultimately, Mack’s testimony was short and he admitted he was just trying to
12

Annallata Hasp- 19-9487

Pana- 17

Data Filar)- 10/1R/9019 Fntrv ID- 4R414RR

reduce his sentence. TR Vol. Ill, p. 547. All three cooperating witnesses were
housed in the Anoka County Jail.
The Government rested its case and Reed called his wife, Vivian Reed, as
his first witness. Ms. Reed testified Reed was not living with her in 2017 and he
did not have access to her apartment. TR Vol. Ill, p. 562-63. She said Reed
worked as a cleaner in 2017 and worked with Sheila Kline. TR Vol. Ill, p. 565-66.
She also said David Kline would show up from time to time at the workplace. TR
Vol. Ill, p. 567. Ms. Reed was a combative witness and would not say she ever
saw Reed wear a respirator when he was working. TR Vol. Ill, p. 568-69. She
knew Reed not to possess guns and she did not know who placed the firearms in
her bedroom. TR Vol. Ill, p. 581, 583. Ms. Reed believed the police were
harassing her husband and when confronted by questions about a search of her
apartment in 2012 that turned up drugs, Ms. Reed testified she believed the police
planted the evidence. TR Vol. Ill, p. 587. In other words, she agreed it was a
grand conspiracy. TR Vol. Ill, p. 590-91.
Reed was the last to testify. He confirmed he worked as a cleaner in 2017.
TR Vol. Ill, p. 603. He worked with Sheila Kline, who is David Kline’s mother.
TR Vol. Ill, p. 604. Reed knew David Kline from playing chess at the school
where the cleaning work was done. TR Vol. Ill, p. 606. Reed described how
Sheila Kline had an office that was more like a janitor’s closet at the school where
13
Annallata Hasp- 19-24R7

Pana- 18

Rata FilaH- in/1f;/?niQ Fntrv in- 4R414KR

she kept cleaning supplies. TR Vol. Ill, p. 608. Reed used a respirator mask in his
cleaning work and he testified the masks found at Colfax looked familiar from
work. TR Vol. Ill, p. 608-610.
Reed was as combative a witness as his wife throughout his testimony. He
denied ever going to the Colfax house. TR Vol. Ill, p. 616. He stated he does not
know Gentle, Dulaney, or Mack. TR Vol. Ill, p. 611. He denied his involvement
in selling heroin. TR Vol. Ill, p. 611. He is unfamiliar with the vehicle found at
the Colfax house. TR Vol. Ill, p. 612. Reed testified he never sold drugs to
Kenneth Mack. TR Vol. Ill, p. 612. Reed clearly stated to the jury that the
respirators found a Colfax were not his and he adamantly maintained his
innocence. TR Vol. Ill, p. 613-14. Finally, Reed denied any knowledge of the
guns found in the Emerson apartment. TR Vol. Ill, p. 614.
The jury had two questions during deliberations before returning guilty
verdicts on Counts I, II, and V.
SUMMARY OF THE ARGUMENT
Reed argues the jury verdict is improper because no reasonable fact-finder
would conclude the Government proved each element of the counts against him;
the District Court should have granted him a new trial primarily because of his
objection to the jury panel; and the sentence imposed by the District Court was
unreasonable.
14

Annallata Hasa- 19-9487

Pana- 19

Data Filar)- 19/15/9019 Fntrv in- 4R414RR

ARGUMENT
I.

THERE WAS INSUFFICIENT EVIDENCE TO SUPPORT THE
GUILTY VERDICTS FOR CONSPIRACY, POSSESSION WITH
INTENT TO DISTRIBUTE, AND PROHIBITED PERSON IN
POSSESSION OF A FIREARM.
Standard of Review: This Court reviews “challenges to the sufficiency of

the evidence de novo.” United States v. Johnson, 745 F.3d 866, 968-69 (8th Cir.
2014). When reviewing the sufficiency of the evidence, [the Court] views the facts
in the light most favorable to the verdict, and affirm if any rational [factfinder]
could have found the defendant guilty beyond a reasonable doubt. United States v.
Ojeda-Estrada, 577 F.3d 871, 874 (8th Cir. 2009). Reed instructed Counsel to
challenge the verdicts.
The instant case offered a parade of cooperators Reed claims he never met.
Jovan Gentle was a heroin dealer who could not stop himself from selling drugs
even while working for law enforcement. Timothy Dulaney was willing to
implicate Reed straight away if it helped him get a lower sentence. And, Kenneth
Mack openly stated on cross examination that he simply wanted to get a reduction
in his sentence. Each of these cooperators were housed at the Anoka County Jail at
the same time, which created doubt about the veracity of their stories.
Jovan Gentle appeared to be a professional cooperator as he was assisting in
more than one case at a time. Yet, for all his willingness to give up Reed, Gentle
was unable to provide any real detail about what Reed supposedly did or when he
15
Annallata Hasp- 1Q-94R7

Pana- 90

Data Filart- 10/1R/PD1P Fntrv in- 4R414RR

supposedly did it. Gentle was the original target of law enforcement investigations
and he began cooperating as soon as he was arrested. In fact, it appeared he was
bargaining right from the start.
Timothy Dulaney’s story didn’t quite match up with Gentle. According to
Dulaney, Reed did not make crack cocaine. Rather, Dulaney and Gentle did that
and Reed was out trying to sell it. Gentle spun a tale of Reed mixing and
packaging both heroin and crack cocaine, while Dulaney’s version of events was
different. This discrepancy called into question whether Reed had anything to do
with crack cocaine.
Reed’s position is that he was friends with Kline and that is how he was
drawn in to this plot line. Reed played chess with Kline and worked for Kline’s
mother. This also gave Kline access to cleaning supplies at his mother’s business
such as gloves and respirators. Reed’s was not surprised there was a DNA sample
taken from a respirator at the Colfax house since the respirator was likely brought
there by Kline from his the cleaning business. It was entirely possible that Reed
transferred DNA to a respirator while working and then Kline simply took the
respirator for use in his drug business.
At trial, Sgt. Lepinski admitted he never actually saw Reed at any of the
properties he was surveilling. He never saw Reed with any of the co-defendants.
There are no cell phone records linking Reed to any co-defendants and Reed was
16

Annallata P.asa- 19-9487

Pans- 91

Data Filar)- 10/15/9019 Fntrv in- 48414RR

not apprehended with cash or drugs on him. In fact, when Sgt. Lepinski stopped
Reed in July, 2017 to execute his DNA warrant, Reed claimed he was living out of
his van and staying in casinos. Not the lifestyle of a person making money from
illicit drug sales. More to the point, it corroborates his claim that he was not living
in the Emerson apartment when the firearms were discovered there. Vivian Reed
testified she had no idea how the guns got there and she testified Reed did not have
full access to the apartment.
Reed steadfastly denied having anything to do with Kline’s drug business or
the firearms that were found. Interestingly, the Government did not call Kline as a
witness at trial even though Kline was repeatedly identified as the leader of the
organization. Reed was described as Kline’s assistant, yet Reed claims he inly
interacted with Kline in a friendship context.
The Government referred to Kline’s organization as a sophisticated drug
ring in its arguments. After reviewing the testimony, especially Reed’s, it becomes
increasingly obvious that no sophisticated drug ring would want a loose cannon
like Reed anywhere near its operations. In light of the loose, vague, and
contradictory testimony at trial, Reed respectfully requests the Court to find there
was insufficient evidence to convict him of Counts I, II or V.

17
Annallata Hasp- 19-94R7

Paritv 99

Date FilaH- 10/15/9019 Fntrv in- 4R414RR

II.

THE DISTRICT ERRED IN DENYING REED’S MOTION FOR NEW
TRIAL
Standard of Review: This Court reviews a motion for new trial using an

abuse of discretion standard, see United States v. Johnson, 474 F.3d 1044, 1050
(8th Cir. 2007); citing United States v. Campos, 306 F.3d 577, 579 (8th Cir. 2002).
The jury's verdict must be allowed to stand unless “the evidence weighs heavily
enough against the verdict [such] that a miscarriage of justice may have occurred.
Johnson, 474 F.3d at 1051; citing United States v. Lacey, 219 F.3d 779, 783 (8th
Cir. 2000).
Reed arrived for the first day of trial suspicious of the entire process. He
and his wife previously remarked on several occasions how they felt harassed and
singled out by police. Reed’s worst fears played out almost immediately as trial
began. As the jury pool began filing in and began taking their seats, Reed
struggled to find anyone that looked like him. Reed is black/African American and
the jury pool was almost entirely white. In fact, the venire panel appeared entirely
white. During most of the trial, the only black/Affican American people in the
room were Reed and the cooperating witnesses wearing jail clothes.
Reed objected to the jury panel based on the racial makeup of the panel
during voir dire. The Court heard brief argument on the objection outside the
presence of the jury, but ultimately overruled the objection. Reed persisted in his
objection with a motion for new trial.
18

Annallata Hastv 19-94R7

Panp- ?R

Date Filarl- m/1R/?ni9 Fntrv in- 4R414RR

Reed is entitled to a jury that represents a “fair cross-section of the
community in the district or divisions where the court convenes.” see Jury
Selection Plan, Declaration of Policy, f 3 (2018),
mnd.uscourts.gov/Jurors/JurvSelectionPlan (pdf). The District Court policy on
what constitutes a fair cross-section of the community is found in voter registration
lists, driver’s license lists, state identification card holders, and and similar lists
such as tribal membership, see Id., f (6). The Court uses voter registration lists as
the primary source for names of potential jurors and supplements with other lists.
Id.
The United States Census shows the total population of Minnesota is
approximately 5, 611, 179.2 The population of Minnesota is 84.4% white and
6.5% black/African American.3 That means there are approximately 364, 726
people in Minnesota that are black/African American as of the latest data. In 2018,
the Minnesota Secretary of State reported there were 4, 064, 389 eligible voters in
Minnesota. Data regarding how the number of eligible voters in Minnesota breaks
down by race is not clear. What is clear is that there is a perception of racial
disparity in voting in Minnesota.4 In the 2012 election, the U.S. Census reported

2 The current data is from July 1,2018. see United States Census Bureau,
census.gov/quickfacts/Minnesota.
3 Id.
4 Schultz, David, Minnesota’s Other Racial Disparity: Votingr„ minnpost.com.
October 24, 2016.
19
Anr><=«llfltf=> r.asft- 1 P-9487

Panp- 94

HatP Filter!- 10/1F5/9D1P Fntrv ID- 4841488

66.9% of black/African American people registered to vote.5 This is important
because the 2012 election was thought to have drawn a larger black/African
American voter turnout. If that is the case, the number of black/African American
people actually on the voter lists in Minnesota is a small percentage of the overall
population. The number of black/African American potential jurors is then also
diminished.
In addition, the District of Minnesota is divided into six divisions, which is
really four divisions because the first and second divisions are pretermitted. The
St. Paul courthouse lies in the third division and comprises a corridor of counties
from Chisago to the Iowa border. The dividing line runs approximately along
Interstate 35 and goes between Ramsey and Hennepin counties. Reed’s case
involves criminal activity in North Minneapolis. There are many neighborhoods in
North Minneapolis that are predominately black/African American in population as
compared to other areas in Minnesota. Reed claims there are cultural differences
that could be obvious to some but oblivious to others based on where the person
lives.

5 The U.S. Census page containing this information and cited in the Schultz article
is no longer available.
20

AnnallatA Hasp- 1Q-94R7

Pana- 2F>

Data Filad' -1D/1Fi/?niP Fntrv ID- 4R414RR

According to the Minnesota Secretary of State’s website, the largest
populated counties in the third division are Washington, Dakota, Olmsted, and
Ramsey. As of March, 2019 the registered voters in these counties are:
Washington
Dakota
Olmsted
Ramsey

163,652
261,075
91,718
313,429

see Voter Registration Counts, sos.state.mn.us
Meanwhile, Hennepin county alone has 780, 104 registered voters. Id. The
U.S. Census maps on its website show that the black/African American population
is concentrated mainly in the metro area. Reed argues that relying primarily on
voter registration rolls within the division framework for potential jurors does not
produce a cross-section of the community, much less a fair cross-section. Reed’s
perspective from his seat at trial was he was often the only black/African American
person in the room. While we strive to eliminate bias and implicit bias in the
judicial system, it was terrifying to Reed that the jurors had a hard time relating to
him. Worse, he feared they would dismiss his testimony outright.
In order to prevail on this issue, Reed must show the group alleged to be
excluded is a distinctive group in the community, representation of this group in
venires from which juries are selected is not fair and reasonable in relation to the
number of persons in the community, and underrepresentation of the group is due
to systemic exclusion of the group in the jury selection process. Duren v.
21
Annpilatft P.flsfr 1Q-94R7

Paner

natp FilftH- 10/15/9019 Fntrv in- 4R414RR

/
/
/

Missouri, 439 U.S. 357 (1979); U.S. v. Rodriguez, 581 F.3d 775, 790 (8th Cir.
2009). Reed is clearly a member of a distinctive group as a black/African
American man. Representation of black/Affican American people in the jury pool
was not in relation to the ratio in the population. And, the system by which we pick
juries excludes large numbers of people from the African American population by
relying too heavily on voter registration. An unfortunate aspect of life in
Minnesota is that there are still communities segregated by race.
Reed’s position is embodied almost verbatim in a September 18, 2018

V

Washington Post opinion article by Radley Balko that provides real data for Reed’s
objections, ref. Balko, Radley, “There’s overwhelming evidence that the criminal
justice system us racist. Here’s the proof.” The Washington Post, (online, Sept. 18,
2018) (www.washingtonpost.com/news/opinions/wp/2018/09/18/theresoverwhelming-evidence-that-the-criminal-iustice-svstem-is-racist-heres-theproof/?utm term=. 16bb92911 ebc). In the article, the author analyzed several
studies on diverse justice-related topics. According to the article, there is a
pervasive problem with racial disparity at all stages of criminal proceedings.
The problem has historical roots in Minnesota that have lasting effects to
this day. In the week before Reed’s sentencing, the Governor of Minnesota signed
a law that finally allows homeowners to denounce restrictive racial covenants on
their land titles, see News Release,
22

Annallata Hasp- 19-9487

Pana- 77

Date Filar)- 10/18/7019 Fntrv in- 4R414RR

www.house.leg.state.mn.us/members/profile/news/10126/25602 (RELEASE: Gov.
Walz signs into law Rep. Jim Davnie’s bill to allow Minnesota homeowners to
denounce racial covenants on home titles.) The history of Minneapolis shows
tactics like racial covenants and restrictive neighborhoods had the effect of
concentrating people of color into defined areas of the city. These neighborhoods
often did not enjoy economic growth in the same way as other areas. In time,
tough policing focused on neighborhoods like North Minneapolis where the
population has a much higher percentage of African Americans. Statistically,
black men and women have more police encounters and are more likely to be
prosecuted with longer sentences. Balko, ibid. Reed argues all of this is inherently
unfair and is the backdrop for his case. Yet the jury chosen to judge him appeared
to him to lack any diversity at all.
Reed claims that living in his neighborhood put him in proximity to people
committing crimes, but it does not mean he is involved. He maintains he did not
receive a fair trial because of the jury panel issue, but also because the Court
allowed the Government to introduce evidence that was overwhelmingly
prejudicial. The 404 (b) evidence of his 2012 dismissed case, the handwritten note
of unknown origin, and the statements to police about CRIs all contributed to what
he describes as a character attack that prejudiced the jury against him. He also
argues that Kenneth Mack should not have been allowed to testify since the
23

Annallata Hasp- 1Q-94R7

Pana- ?R

Data Filarl-

Fntrv ID- 48414fifi

1

testimony he provided was not charged in the Indictment. There was no
corroboration to Mack’s testimony and he ultimately showed himself to not be
credible.
The handwritten note was unsigned and could not be corroborated. The
Government no expert testimony as to the handwriting and there were no samples
to compare the note to for authentication. The Government referenced a 2012 case
in Minnesota state court charging Reed with drug possession that was ultimately
dismissed. Between that evidence and Kenneth Mack’s unrelated allegations,
Reed argues he was unable to shake off the attack on his character.
Reed asks the Court to vacate the judgment and grant his request for a new
trial. He would also ask that the matter be docketed in division four so he has a
better chance of picking a jury of his peers.
IH.

THE DISTRICT COURT’S SENTENCE WAS SUBSTANTIVELY
AND PROCEDURALLY UNREASONABLE.
Standard of Review: This Court reviews the reasonableness of the sentence

by first ensuring “that the district court committed no significant procedural error.”
United States v. Clayton, 828 F.3d 654, 657 (8th Cir. 2016); citing Gall v. United
States, 552 U.S. 38, 128 S.Ct. 586 (2007). We then “consider the substantive
reasonableness of the sentence imposed under an abuse-of-discretion standard.”
Id.

24

Annulate Hasa- 1 P-9487

Pana- 9P

Data Filar)- 10/18/901P Fntrv in- 4R414RR

Reed argues his sentence was longer than necessary because the District
Court improperly relied on the drug conversion tables. In Reed’s case, the drug
conversion tables create a disparity between crack cocaine and powder cocaine.
Reed objected to the guideline calculation in the PSR, arguing the disparity in
treatment of crack versus powder cocaine was plain wrong. Reed also objected at
the sentencing hearing that the announced sentence was not reasonable. The Court
overruled the objections and sentenced Reed to the middle of the advisory
guideline range (240 months).
Reed complains the drug conversion table in U.S.S.G. §2D1.1 establishes an
unreasonably high conversion for cocaine base. It equates 1 gram of crack cocaine
to 3,571 grams, which amplifies the actual crack cocaine amount. A gram of
powder cocaine is treated as 200 grams on the conversion table. This conversion
difference perpetuates the disparity that existed with regard to crack versus powder
cocaine cases before Kimbrough v. United States, 552 U.S. 85,128 S.Ct. 558
(2007), Spears v. United States, 555 U.S. 261,129 S.Ct. 840 (2009), and the Fair
Sentencing Act.
According to the drug quantity table in §2D1.1 (c), the amount of heroin and
crack cocaine found by the jury at trial results in the same base offense level. In
this case, the PSR lists 1,202.3 grams of heroin and 751.9 grams of crack. On the
drug quantity table, both amounts would be a base offense level 30. Reed argues
25

Ann<=>llatft P.ase- 1Q-94R7

Pfln<=>- 30

HfltP FilftH- m/1fi/?nip Fntrv in- 4R414RR

there is no reason to employ a drug conversion table in his case other than to
arbitrarily enhance the base offense level. The drugs the jury convicted him of are
the same offense level and should not be converted even though they are different
drugs.
The drug conversion tables started out as the Drug Equivalency Table in the
1991 guidelines. At that time, there was a 100:1 ratio for cocaine base versus
powder cocaine. Leaping forward to 2018, the newly minted Drug Conversion
Table maintains a difference between cocaine base and powder cocaine, but at a
different rate. Reed argues the nefarious effect is the same as the previous
disparity in the drug quantity table. According to the U.S.S.G. crack cocaine topic
on its website, in 2018 the percentage of crack cocaine traffickers that were men
was 92.4%. The percentage of these defendants that were black was 80%. By
employing different conversion standards for converted drug weights, the
guidelines are again impacting black defendants at a higher rate.
Reed claims his guideline range should have been no more than level 32 in
criminal history category V, making his advisory guideline range 188-235. That is
a significant difference in potential range.
This Court has outlined the sentencing methodology:
The district court should begin “by correctly calculating the applicable
Guidelines range.” “[T]he Guidelines should be the starting point and the
initial benchmark, but the Guidelines are not the only consideration.” The
district judge should allow “both parties an opportunity to argue for
26

Annallata Casa- 19-9487

Pana- 01

Date FilaH- 10/15/9019 Fntrv in- 48414RR

whatever sentence they deem appropriate,” and then should consider all of
the §3553 (a) factors to determine whether they support the sentence
requested by a party.”
United States v. Hill, 552 F.3d 686, 691 (8th Cir. 2009) (quoting Gall v.
United States, 552 U.S. 38, 49-50, 128 S.Ct. 586 (2007)).
The courts should “continue to engage in the three-step process of first
ascertaining the applicable Guidelines range, then considering any permissible
departures within the Guidelines’s structure, and finally, deciding whether a nonGuidelines sentence would be more appropriate under the circumstances pursuant
to §3553 (a). United States v. Washington, 515 F.3d 861, 866 (8th Cir. 2008). A
district court has an independent obligation to exercise its discretion to craft a
sentence that is sufficient, but not greater than necessary, to achieve the goals of
§3553 (a). Freeman v. United States, 564 U.S. 522,131 S.Ct. 2685, 2692 (2011).
Even if the Court determined there is no policy disagreement with the drug
conversion table, the District Court could still vary from the guideline range using
the factors in 18 U.S.C. §3553 (a) to account for the unfair application of the
conversion to Reed. “The district court has wide latitude to weigh the §3553 (a)
factors in each case and assign some factors greater weight than others in
determining an appropriate sentence.” Clayton, 828 F.3d at 658; citing United
States v. Bridges, 569 F.3d 374, 379 (8th Cir. 2009). While Reed appreciates the
District Court’s willingness to overrule the enhancement for maintaining a

27

Annulate Hasp- 1Q-94R7

Panp- 89

Date* FilpH- 10/15/9019 Fntrv ID- 4841400

premises for drug sales, he still ended up with a sentence that he feels was
arbitrarily set at 240 months.
CONCLUSION
In light of the reasons argued herein, Cleophus Reed, Jr. respectfully asks
this Court to vacate the Judgment and order a new trial or re-sentencing because
the evidence was insufficient to support the conviction, the District Court should
have ordered a new trial, and because the sentence was unreasonable.
BEITO & LENGELING, P.A.
Date:

October 14.2019

s/ Robert A. Lengeling__________
Robert A. Lengeling, MN ID# 304165
Flour Exchange Building
310 Fourth Avenue South, Suite 1050
Minneapolis, Minnesota 55415
(612) 767-1618 / (612) 333-8003 fax
rob@beitolengelinglaw.com
ATTORNEY FOR APPELLANT

By

CERTIFICATE OF COMPLIANCE
This brief complies with the type-volume limitation of Fed. R. App. P.
32(a)(7)(B) because it contains 6,649 words, including footnotes, endnotes and
headers, and excluding the parts of the brief exempted by Fed. R. App. P.
32(a)(7)(B)(iii).

28

Annallata Case- 19-9487

Pana- 88

Hate Filar!- 10/15/9019 Fntrv in- 4R414RR

4

This brief further complies with the typeface requirements of Fed. R. App.
P. 32(a)(5) and the type style requirements of Fed. R. App. P. 32(a)(6) because this
brief has been prepared using Word in 14 point Baskerville font.

BEITO & LENGELING, P.A.
Date:

October 14. 2019

By

s/ Robert A.

Lenseling_________
Robert A. Lengeling, MN ID# 304165
Flour Exchange Building
310 Fourth Avenue South, Suite 1050
Minneapolis, Minnesota 55415
(612) 767-1618 / (612) 333-8003 fax
rob@beitolengelinglaw. com
ATTORNEY FOR APPELLANT

CERTIFICATE RE: VIRUS FREE
Pursuant to Rule 28A (h)(2) of the Eighth Circuit Rules of Appellate
Procedure, the undersigned counsel for Appellant Cleophus Reed, Jr. certifies that
the Appellant’s brief has been scanned for viruses and is free from such computer
viruses.

Date:

s/Robert A. Lengeling_________
Robert A. Lengeling, MN ID# 304165

October 14, 2019

29
Annallata Casfv 19-9487

Pana- 34

Date Filarl- 10/15/9019 Fntrv in- 4841488

*i

1/25/2021

Gmail - Tampering with mail

M Gmail

Vivian <dvc2414@gmail.com>

Tampering with mail
1 message
Vivian <dvc2414@gmail.com>
To: NCRO/ExecAssistant@bop.gov

Tue, Jan 5, 2021 at 12:45 PM

Afternoon,
I'm writing in reference to the unethical, and criminal handling of mail at FCI PEKIN.
This letter is concerning Cleophus Reed Jr-21513041 and his mail and property.
Mr. Reed has not exhausted his remaining remedies in court. He has been experiencing undue delays and interferes
concerning legal documents. We have proof and evidence of what we mailed to the prison and yet Mr. Reed has yet to
retrieve it.
This tampering with his legal mail is against the law and against his constitutional rights. We are prepared to file ah
official complaint against the public officials responsible for causing an unreasonable breach of duty and negligence
towards Cleophus Reed Jr-21513041.
I'm asking that this department and agency would investigate further on this matter as soon as possible to determine the
whereabouts of all his legal mail so that he can continue his business in court which is afforded to him by the constitution
of the United States.
This delay will be duly noted to the court for reference.
Sincerely,
Vivian Reed

https://mail. google.com/mail/u/0?ik=25d9761382&view=pt&search=all&permthid=thread-a%3Ar-56415545145997663&simpl=msg-a%3Ar-595101770...

1/1

1/25/2021

Gmail - Pekin federal prison

(M! Gmail

Vivian <dvc2414@gmail.com>

Pekin federal prison
1 message
Vivian <dvc2414@gmail.com>
To: NCRO/ExecAssistant@bop.gov

Mon, Dec 28, 2020 at 9:12 PM

I'm writing in reference to my husband. Cleophus Reed Jr-21513041. He is at Pekin FCI.
He has not be given access to his mail.
I appreciate the executive response to the administration and the workers at the prison in investigating why this is.
I have been unable to reach anyone of authority at the prison to give me an answer since my inquiries began in
November.
I really hope that this agency would consider my complaint and petition seriously.
I understand this is the holiday season and it's possible people are on leave.
Respectfully investigate why my husband has been unable to receive his legal mail.
Thank you for your time,
Vivian Reed

https://mail.google.com/mail/u/0?ik=25d9761382&view=pt&search=all&permthid=thread-a%3Ar8837581268063351188&simpl=msg-a%3Ar553599350...

1/1

1/25/2021

Gmail - PEKIN

M Gmail

Vivian <dvc2414@gmail.com>

PEKIN
1 message
Vivian <dvc2414@gmail.com>
To: NCRO/ExecAssistant@bop.gov

Mon, Dec 21,2020 at 3:07 PM

Afternoon
THIS IS IN REFERENCE TO CLEOPHUS REED JR 21513041.
THE ADMINISTRATION TEAM IS NEVER AVAILABLE FOR MATTERS PERTAINING TO THE LEGAL SERVICES OF
THE INMATES. I’VE CALLED SEVERAL TIMES TO DO A WELLNESS CHECK FOR MY HUSBAND WHO TESTED
POSITIVE FOR COVID-19. I HAVEN'T HEARD ANYTHING ABOUT HIS HEALTH AND HE'S BEEN IN ISOLATION FOR
23 DAYS.
I WILL FILE A CAUSE OF ACTION FOR NEGLIGENCE AND ANYTHING RELEVANT AND WITHIN MY RIGHTS. IF
THIS ISN'T RESOLVED.
I'VE ALREADY WENT TO THE PRESS ABOUT NOT RECEIVING INFORMATION ABOUT HIS STATUS AND HEALTH.

https://mail.google.com/mail/u/0?ik=25d9761382&view=pt&search=all&permthid=thread-a%3Ar2184468285720745961&simpl=msg-a%3Ar-16474115...

1/1

1/25/2021

Gmail - Law Library complaint

M Gmail

Vivian <dvc2414@gmail.com>

Law Library complaint
1 message
Vivian <dvc2414@gmail.com>
To: NCRO/ExecAssistant@bop.gov

Wed, Oct 14, 2020 at 12:22 PM

Good afternoon,
This is in reference to Cleophus Reed 21513041 at FCI PEKIN
The staff at the law library are procrastinating with his request for two forms:
1. Writ of certiorari application/form and;
2. Pauperis form
He has been requesting these forms for weeks and according to federal criminal procedures he has a limited amount of
time to submit petitions to the court.
Infringement of these rights are against the law and this agency is required to resolve these disputes with the staff at the
prison.
I will personally bring a cause of action against the BOP if Mr. Reed is unable to procure legal materials to Shepardize his
case in a reasonable and timely manner.
Thank you,
Vivian Reed

https://mail.google.com/mail/u/0?ik=25d9761382&view=pt&search=all&permthid=thread-a%3Ar-6480343752415570177&simpl=msg-a%3Ar-2567621...

1/1

